March 15, 2021
Mr. Scott S. Harris
Clerk of the Court
United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543
Re:

Washington v. Ali, No. 20-830
Washington v. Domingo-Cornelio, No. 20-831

Dear Mr. Harris:
We are counsel for respondents in these cases. We are writing to alert the
Court to a new decision just issued by the Washington Supreme Court.
On March 11, 2021, the Washington Supreme Court issued its decision in In
re Monschke, 2021 WL 923319 (Wash. Mar. 11, 2021), a copy of which is attached to
this letter. That decision explained that the ruling in State v. Houston-Sconiers, 391
P.3d 409 (Wash. 2017), is grounded in Article I, section 14 of the Washington
Constitution. Monschke, 2021 WL 923319, at *3. Monschke also reaffirmed that
Washington’s constitutional prohibition on cruel punishment “provides greater
protection than the Eighth Amendment” that is “independent” of that federal
guarantee, particularly “in the context of juvenile sentencing.” Id. at *3 & n.6. This
decision is relevant to the point in our brief in opposition, see BIO 15-17, that the
Washington Supreme Court would ground the rule of Houston-Sconiers in the State’s
constitution.
We would appreciate if you would circulate this letter and the enclosed decision
to the Justices in advance of their March 26, 2021 conference.
Sincerely,
/s/ Emily M. Gause
Emily M. Gause
/s/ Jeffrey E. Ellis
Jeffrey E. Ellis
Counsel of Record for Domingo-Cornelio
/s/ Corey Evan Parker
Corey Evan Parker
Counsel of Record for Ali

